NO._____________

IN THE SUPREME COURT OF THE UNITED STATES

AARON KEITH AVERY,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE
H. MICHAEL SOKOLOW, a member of the Bar of this Court and appointed
under the Criminal Justice Act, certifies that, pursuant to Rule 29.5, he served the
preceding Petition for Writ of Certiorari and the accompanying Motion for Leave to
Proceed In Forma Pauperis on counsel for the Respondent (1) by mailing, on September
25, 2020, a copy of these documents (via first-class United States mail, postage prepaid)
to:
The Honorable Jeffrey B. Wall
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
and also (2) by sending, on September 25, 2020, the said documents via electronic mail to
the Office of the Acting Solicitor General at the following e-mail address:
SupremeCtBriefs@USDOJ.gov. He certifies that all parties required to be served have
been served.

H. MICHAEL SOKOLOW

